U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


PATENT AND TRADEMARK OFFICE
         Improved Internal Controls Needed
            For Office of Human Resources
        Final Audit Report No. BTD-12830/September 2000




        Office of Audits, Business and Trade Audits Division
September 27, 2000


MEMORANDUM FOR:              Q. Todd Dickinson
                             Under Secretary of Commerce for Intellectual Property and
                              Director of the U.S. Patent and Trademark Office


FROM:                        Johnnie E. Frazier

SUBJECT:                     Improved Internal Controls Needed
                             For Office of Human Resources
                             Final Audit Report No. BTD-12830

The Office of Inspector General has completed a performance audit of selected aspects of
USPTO’s Office of Human Resources (OHR). Our review concentrated on two areas of concern:
internal controls over hiring actions, including background investigations, and internal controls
over recorded personnel actions and employees’ official personnel files (OPFs).

Internal controls over hiring actions, including background investigations, had already been
identified as a problem area by USPTO’s Associate Commissioner and Chief Financial Officer
(CFO). In March 2000, just before we began our audit, the CFO implemented a series of
initiatives designed to improve OHR operations. We found that despite these changes, issues
remain that warrant continued management attention. We are recommending that senior OHR
officials periodically report on the progress being made to resolve the remaining issues.

As of May 2000, background investigations had not been requested for 113 USPTO employees
hired since October 1997. For 1,626 employees hired since 1970, there was no documentation of
such investigations in the USPTO Security database. A specific schedule has been implemented
to clear the backlog of employees with no background investigations.

USPTO has already identified the need to improve internal controls over recorded personnel
actions, as evidenced by an estimated 40,000 to 50,000 forms documenting personnel actions that
are unfiled. We also found that there is a need to improve internal controls over OPFs. We
found that a number of them could not be located.

In USPTO’s response to the draft report, the CFO agreed with the findings and
recommendations. He informed us that he is reporting to you on the progress made in improving
internal controls and overall personnel and security operations. He also stated that OHR and the
Office of Security are actively and aggressively implementing a number of measures and
procedures to address our concerns. The USPTO response to the draft report is attached to this
report.

Please provide your audit action plan addressing the recommendations within 60 calendar days,
in accordance with Department Administrative Order 213-5. The plan should be in the format
U.S. Department of Commerce                                               Final Report BTD-12830
Office of Inspector General                                                       September 2000

specified in Exhibit 7 of the DAO. Should you have any questions regarding the preparation of
audit action plans, please contact Andrew R. Cochran, Director, Business and Trade Audits
Division, at (202) 482-4415. We appreciate the cooperation and courtesies extended to us by
USPTO staff during the review.

INTRODUCTION

USPTO’s mission is to promote industrial and technological progress in the United States; to
strengthen the national economy by administering the laws relating to patents and trademarks;
and to advise the Administration on patent, trademark, and copyright protection, and the trade-
related aspects of intellectual property. USPTO’s workload has grown by almost 75 percent since
1992. In fiscal year 1999, there were an estimated 226,000 inventions and 280,000 trademark
applications filed.

As the number of patent and trademark filings has increased, USPTO has increased its examining
staff and associated support staff. Increases in full-time equivalents (FTEs) in the patent and
trademark processes since fiscal year 1998 are shown in Figure 1.




The recruitment and retention needs of USPTO resulted in increased demands on OHR in fiscal
years 1998 and 1999, when 976 and 1,187 employees, respectively, were hired. During the first
six months of fiscal year 2000, 208 employees were hired. Separations, which also require OHR
services, have also been significant. Of the 1,395 accessions since October 1998, 252 employees,
or 18 percent, were separated by March 11, 2000.



                                               2
U.S. Department of Commerce                                                Final Report BTD-12830
Office of Inspector General                                                        September 2000

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this performance audit were to determine whether OHR (1) has adequate
internal controls over staffing actions, including background investigations, (2) has adequate
internal controls over recorded personnel actions and employees’ OPFs, and (3) is efficiently and
effectively servicing USPTO’s employees. The scope of the audit included fiscal years 1998,
1999, and 2000 (through May 31).

Our review methodology included interviews of key officials in OHR and USPTO’s Office of
Security. We also reviewed applicable regulations, policies, procedures, and practices, and
examined documentation submitted by USPTO officials, management reports, and records. In
addition, we selected a statistical sample of 125 OPFs to determine whether employees’ files are
being safeguarded in accordance with established personnel policies, procedures, and guidelines
(described in more detail below). We did not assess the reliability of computer-generated data
because such data was not relevant to our review.

Our audit was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended. Our audit was
conducted from March through July 2000 at USPTO’s headquarters in Crystal City, Virginia.

FINDINGS AND RECOMMENDATIONS

Our audit revealed that the required background investigations of new employees have not
always been carried out or consistently documented. In addition, maintenance of OPFs has
deteriorated to such an extent that OHR estimated that tens of thousands of personnel action
documents have not been filed. Moreover, security safeguards over OPFs have been insufficient.
Based on a systematic random sample in which 10 percent of selected OPFs could not be
accounted for by OHR, we estimate that approximately 10 percent–between 108 and 121
OPFs–of employees hired between October 1998 and March 2000 cannot be located. Results of
our sample are discussed in more detail in section II below.

In March 2000, just before we began our audit, USPTO’s Associate Commissioner and Chief
Financial Officer undertook a series of initiatives designed to improve OHR operations, including
a reorganization of human resource activities and the reassignment of several OHR officials.

I.     Improved System for Processing Background Investigations Is Needed

Background investigations, required of each new employee, have not always been properly
performed and documented. As a result, there is no assurance that all personnel hired for certain


                                                3
U.S. Department of Commerce                                                  Final Report BTD-12830
Office of Inspector General                                                          September 2000

examination and administrative functions, with access to sensitive proprietary business data,
would have passed the required background investigations. As of May 2000, OHR had not
prepared and submitted the forms necessary to request background investigations for 113
employees hired since October 1997. These forms are needed in order to request the Office of
Personnel Management (OPM) to conduct a background investigation. Our review further
revealed that documentation of background investigations for 1,626 employees hired since
1970–400 of whom were hired since 1990–is not in the USPTO Security database.

The absence of documentation could be the result of either an investigation not being requested
or documentation of the investigation results not being recorded in the USPTO Security database.
In many cases, the necessary forms were not always submitted by new employees, or forms
submitted were not always forwarded to the Office of Security for transmittal to OPM. In other
cases, forms were incorrectly completed, requiring the Office of Security to return them to OHR
for correction. An official from USPTO’s Office of Security said that in some instances, it may
be a case of information not being entered into the database rather than personnel not being
investigated.

Certain adverse findings in OPM investigative reports require that the agency involved take
adjudicative action and return a report form to OPM describing the action taken. Possible
adjudicative actions include the agency’s (1) not hiring an individual, based on a suitability or
security determination; (2) terminating an employee; (3) suspending the employee for a period of
time; and (4) taking no action despite the adverse finding. Within USPTO, OHR is responsible
for adjudicating OPM investigative report results. We found that OPM reports on 17 employees
sent to OHR for adjudication since October 1998 were still awaiting action as of May 2000.

According to an OHR official, the main reason for the lapses was the large number of new
hires–over 2,100–processed by OHR during fiscal years 1998-99. Another reason given was the
1:61 servicing ratio of OHR specialists to employees, which leaves little time for specialists to
devote to any one employee. A third reason cited was the multiple demands, including special
projects unrelated to hiring actions, that have been placed on limited OHR resources.

We found that inadequate internal controls over hiring actions, including background
investigations, had also been identified as a problem area by USPTO’s Associate Commissioner
and CFO. Action has been initiated to address the lapses in OHR’s processing of requests for
background investigations. A specific schedule has been implemented to clear the backlog of
employees lacking background investigations and OPM reports needing adjudication.

The CFO has two additional actions planned. First, responsibility for processing requests for
background investigations will be transferred to the Office of Security. To handle this workload,
three new security specialists are being hired to process requests for investigations and adjudicate


                                                 4
U.S. Department of Commerce                                                 Final Report BTD-12830
Office of Inspector General                                                         September 2000

OPM reports resulting from those investigations. Second, pre-appointment checks will be
conducted before an employee’s entry on duty; this practice was initiated this fiscal year.

We endorse these measures as first steps in resolving the backlog. However, because of the
severity and long history of the problems identified and the importance of background
investigations, we believe that the CFO should periodically report to the Under Secretary
regarding the progress being made in these areas.

II.    Internal Controls over Personnel Action Documents and
       Official Personnel Files Are Inadequate

Several conditions in OHR’s file room indicate a lack of adequate internal controls over
personnel action documents and OPFs. There is a backlog of unfiled recorded personnel actions,
estimated by OHR to be 40,000 to 50,000; insufficient controls over access to the file room; and
insufficient safeguards over the OPFs.

Thousands of Unfiled Personnel Action Forms

USPTO has already identified the need to improve internal controls over recorded personnel
actions, as evidenced by an estimated 40,000 to 50,000 forms documenting personnel actions that
are unfiled. An OHR official cited two reasons for this backlog of unfiled personnel action forms.
One reason given was a lapse in the printing of personnel action forms. USPTO has had
interagency agreements with the National Oceanic and Atmospheric Administration for
reimbursable printing services, but from October 1999 until mid-May 2000, there was no
agreement. According to this official, a huge backlog of personnel action forms was received by
OHR after the current agreement was signed in May 2000. Another reason given was the
termination of file room contract employees in March 2000. Since then, the two remaining
employees have been able to file only the most recent actions, leaving the backlog uncleared.

While these factors may have contributed to the backlog of personnel actions to be filed, the
situation also indicates insufficient management oversight and internal controls over personnel
operations. The previous manager of this operation acknowledged that she was responsible for
managing over 50 USPTO employees and contractors and was unaware of the extent of the filing
backlog.

An audit of USPTO’s FY 1999 financial statements was conducted by Ernst & Young, LLP,
which identified ways to improve internal controls and promote operating efficiencies. In its
management letter, issued in January 2000, Ernst & Young reported that SF-50s, Notification of
Personnel Action, for 6 of 45 employees selected for testing were not maintained in the



                                                5
U.S. Department of Commerce                                                             Final Report BTD-12830
Office of Inspector General                                                                     September 2000

employee’s OPF and could not be located by OHR1. In addition, 11 other SF-50s that were
effective on January 3, 1999, had not been filed as of September 30, 1999. Ernst & Young noted
that without properly maintained OPFs, an audit trail does not exist to support personnel actions.

Insufficient File Room Security

The Privacy Act–5 USC552a(e)(10)–requires agencies to establish appropriate safeguards over
covered records. However, our audit found that there are insufficient controls over access to
OHR’s file room containing OPFs and inconsistent application of OPF checkout procedures. We
observed that the OPF file room is not locked when file room employees leave the room.
According to the current file room supervisor, a USPTO employee or supervisor may request, in
advance, to see an OPF in the file room. However, there are no written guidelines concerning
who is authorized to see an OPF. In practice, anyone in OHR is allowed to see an OPF.

To remove an OPF from the file room, OHR employees are supposed to fill out a request form
and then sign a charge-out log book. Although this log book for recording OPF removal is near
the door, we observed one OHR employee remove an OPF without filling out a request form or
signing the log book. When questioned, the current file room supervisor acknowledged that, in
addition to the two file room employees and herself, 13 other OHR employees in her division are
allowed to remove OPFs without filling out a request form or signing out the OPF. In our
opinion, the lack of sufficient controls over access to OHR’s file room and the inconsistent
application of OPF checkout procedures have resulted in OHR being unable to account for a
number of OPFs.

10 Percent of OPFs Not Located

We also found that there is a need to improve internal controls over OPFs. Using a statistical
sample to determine the extent of files that could not be accounted for, we found that a number
of them could not be located. We conducted a systematic unstratified random sample of 125
OPFs, representing 11 percent of the 1,099 employees hired since October 1998 and still
employed as of March 2000.2 The sample size was sufficient to find 95 percent of errors that
would likely occur within the sample population. The results of our sample were that, of the 125
OPFs:



        1
        Office of Inspector General. Management letter for PTO’s FY 1999 Financial Statements Audit, Final
Audit Report No. FSD-11893-0-0001, March 2000, p. 1.
        2
          While most of the difference between the number of accessions, as discussed on p. 2 of report, and the
number of employees still employed as of March 2000 was due to separations, some was due to timing differences.
Accession data used was based on pay periods while the employee roster used was based on fiscal year data.

                                                        6
U.S. Department of Commerce                                               Final Report BTD-12830
Office of Inspector General                                                       September 2000

l      87 were located in the file room (2 were misfiled but still found);
l      30 were not located in the file room; and
l      8 were marked with “out” markers but OHR staff could not readily determine their
       location.

Of the 38 OPFs either not found or marked “out,” OHR explained that:

l      15 had been charged out, i.e., their location was recorded;
l      13 had not been charged out, and further research was needed to determine their location;
l      7 were for employees separated since March 2000;
l      2 were for OHR employees, whose OPFs are stored in a separate room; and
l      1 was for an employee for whom there was no record in the payroll system (further
       research was needed to determine this employee’s status).

Based on the sample and OHR’s explanations, we estimate that between 108 and 121 OPFs of
employees hired between October 1998 and March 2000 cannot be located. The results of our
sample, with adjustments made for OHR’s explanations, are illustrated in figure 2. On the date
the sample was conducted, the 15 OPFs that were charged out had been out of the file room for
an average of 115 days.




OHR staff has begun to draft standard procedures to address these conditions. They are also
considering hiring contract employees to file the personnel action forms.

We believe that with the exception of file room employees, their supervisor, and the OHR
Director and Deputy Director, OHR employees should not be allowed access to the OPF room.


                                               7
U.S. Department of Commerce                                                 Final Report BTD-12830
Office of Inspector General                                                         September 2000

Because of Privacy Act requirements, we also believe that OHR should implement additional
internal controls for OPFs and periodically report on progress to senior USPTO management.

Recommendation

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the U.S. Patent and Trademark Office direct the Chief Financial Officer to periodically report to
the Under Secretary on the progress being made to improve overall personnel operations,
including:

1.     clearing the backlog of employees with no background investigations and OPM reports
       needing adjudication;

2.     implementing procedures to prevent future lapses in obtaining background investigations
       for employees and adjudicating OPM reports;

3.     clearing the backlog of unfiled personnel action forms; and

4.     strengthening internal controls over OPFs.

PTO Response and OIG Comments

PTO concurred with our recommendations, and PTO’s complete response to our draft report is
attached.


Attachment




                                                8
